<html>
<title> - [H.A.S.C. NO. 111-45] NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2010 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-45]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2010

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                AIR AND LAND FORCES SUBCOMMITTEE HEARING

                                   ON

                BUDGET REQUEST ON ARMY AIRCRAFT PROGRAMS

                               __________

                              HEARING HELD
                             APRIL 23, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                  U.S. GOVERNMENT PRINTING OFFICE
51-762                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



                    AIR AND LAND FORCES SUBCOMMITTEE

                   NEIL ABERCROMBIE, Hawaii, Chairman
JOHN SPRATT, South Carolina          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               CATHY McMORRIS RODGERS, Washington
ADAM SMITH, Washington               MARY FALLIN, Oklahoma
MIKE McINTYRE, North Carolina        DUNCAN HUNTER, California
ELLEN O. TAUSCHER, California        JOHN C. FLEMING, Louisiana
ROBERT A. BRADY, Pennsylvania        MIKE COFFMAN, Colorado
JIM COOPER, Tennessee                HOWARD P. ``BUCK'' McKEON, 
JIM MARSHALL, Georgia                    California
JOE SESTAK, Pennsylvania             W. TODD AKIN, Missouri
GABRIELLE GIFFORDS, Arizona          JEFF MILLER, Florida
NIKI TSONGAS, Massachusetts          JOE WILSON, South Carolina
LARRY KISSELL, North Carolina        FRANK A. LoBIONDO, New Jersey
FRANK M. KRATOVIL, Jr., Maryland     ROB BISHOP, Utah
ERIC J.J. MASSA, New York            MICHAEL TURNER, Ohio
BOBBY BRIGHT, Alabama
                 Doug Roach, Professional Staff Member
                 John Wason, Professional Staff Member
                      Ben Glerum, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, April 23, 2009, Fiscal Year 2010 National Defense 
  Authorization Act--Budget Request on Army Aircraft Programs....     1

Appendix:

Thursday, April 23, 2009.........................................    29
                              ----------                              

                        THURSDAY, APRIL 23, 2009
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
                         ARMY AIRCRAFT PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Abercrombie, Hon. Neil, a Representative from Hawaii, Chairman, 
  Air and Land Forces Subcommittee...............................     1
Bartlett, Hon. Roscoe G., a Representative from Maryland, Ranking 
  Member, Air and Land Forces Subcommittee.......................     3

                               WITNESSES

Davis, Brig. Gen. Walter L., USA, Director of Army Aviation, U.S. 
  Army; and Brig. Gen. William T. Crosby, USA, Program Executive 
  Officer, Aviation, U.S. Army...................................     5

                                APPENDIX

Prepared Statements:

    Davis, Brig. Gen. Walter L., joint with Brig. Gen. William T. 
      Crosby.....................................................    33

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Hunter...................................................    63
    Mr. Marshall.................................................    63
    Mr. Massa....................................................    63
    Mr. Miller...................................................    63

Questions Submitted by Members Post Hearing:

    Ms. Giffords.................................................    67
    Mr. Kissell..................................................    68
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
                         ARMY AIRCRAFT PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Air and Land Forces Subcommittee,
                          Washington, DC, Thursday, April 23, 2009.
    The subcommittee met, pursuant to call, at 9:17 a.m., in 
room 2118, Rayburn House Office Building, Hon. Neil Abercrombie 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. NEIL ABERCROMBIE, A REPRESENTATIVE 
    FROM HAWAII, CHAIRMAN, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Abercrombie. Mr. Miller is going to come up. I think 
Mr. Bartlett is almost here, but this is liable to get tricky 
in terms of time, so we are just going to get started. And when 
Mr. Bartlett gets here, we will catch up, I am sure, okay?
    Ah, there he is. Speak of the devil and hear the flutter of 
his wings. Jeff, why don't you come down here? You don't have 
to stay down there.
    Mr. Miller. (OFF MIKE)
    Mr. Abercrombie. Okay. Right, you make a quick exit.
    Mr. Miller. (OFF MIKE)
    Mr. Abercrombie. That is right.
    Aloha. Good morning, everybody. The Air and Land Forces 
Subcommittee is meeting this morning to receive testimony from 
Army aviation programs.
    By the way, parenthetically, I should note, I suppose, that 
I read the editorial recently saying the Air Force should 
disappear, and we will just turn over all the air assets and so 
on to the Army. And I see, if you keep facing this way, then 
maybe the cameras won't catch your smile.
    Immediately after the hearing, we will adjourn to room 2337 
to receive a classified briefing on related issues. And if we 
get off into areas where you think it is appropriate to speak 
there rather than here, just say so. It is inadvertent and not 
intended.
    And of course, on that note, we welcome our witnesses from 
the Army, Brigadier General Walter Davis, Director of Army 
Aviation, and Brigadier General William Crosby, Program 
Executive for Aviation.
    We know very little about the fiscal year 2010 Army 
aviation budget beyond what Secretary Gates provided on April 
6th, and subsequent rumors detailed to the media primarily on 
the Joint Cargo Aircraft. Those rumors I understand and know 
very, very clearly, gentlemen, did not come from you.
    And because they are rumors, that is why we are having this 
hearing today, and we will deal with what should be out there 
right now today, and what should be in the classified hearing, 
we will take up then for the Members' benefit.
    The annual request for Army aviation accounts has increased 
by 90 percent in the last 5 years. This subcommittee and the 
committee as a whole, under Mr. Skelton's leadership, has 
supported those requests, other than requests for the Armed 
Reconnaissance Helicopter (ARH). We registered our concerns 
with the ARH beginning three years ago. And as we know, the 
Department of Defense canceled this program late last year in 
part for the reasons we had cited in our oversight capacity.
    Secretary Gates indicated he was adding $500 million to the 
fiscal year 2010 budget to sustain more helicopters in the 
field. He indicated he thought the primary limitation on 
current helicopter capacity is not airframes, but shortages of 
maintenance and flight crews.
    A review of readiness data indicates that, while there are 
personnel shortages in Army aviation brigades, the shortages 
indicated for equipment for helicopters cause an even greater 
degradation of readiness. We looked at your own statistics for 
this. We don't want to get in an argument with Mr. Gates, as 
such. It is just that it seems to be a bit of an anomaly to us.
    Even for units involved in overseas contingency operations, 
shortages of equipment are the most stressing shortfall, not 
personnel, at least from the statistics we have been given. We 
will get into this detail in our classified session after the 
hearing.
    But to the degree that this can be addressed in this 
hearing, I would very much appreciate and ask our witnesses to 
address what seems to be an apparent inconsistency between the 
readiness data and the Secretary's statement. Is that clear 
where I am going?
    Perhaps the significant increases in procurement funding 
and aviation account the past few years will address the 
current equipment shortfalls once the helicopters procured are 
fielded. If not, we want to look at fiscal year 2010 budget 
requests to determine whether it is sufficient to address the 
shortfalls in equipment.
    Secretary Gates did not address the Joint Cargo Aircraft 
program in his April 6th press conference, but it seems to be 
common knowledge that there are major changes planned in the 
fiscal year 2010 budget request. Again, to the degree you as 
witnesses can address the JCA, we ask that you do so.
    I do want to indicate, as well, that this is not just my 
line of inquiry. Other Members have already indicated to me and 
to committee staff that they want to explore these issues in 
greater depth and detail.
    The Comanche helicopter program was canceled in February 
2004, and the ARH program was canceled in October 2008. 
Therefore, it has been a long time since the Army developed and 
fielded a new helicopter.
    Recently, Secretary Gates and General Cartwright raised the 
possibility of substituting unmanned capabilities for some 
fighter aircraft. This begs the question whether a similar 
substitution could be considered for some helicopter 
capabilities, or is being considered for some helicopter 
capabilities.
    We would appreciate, again to the degree you can, in this 
context, give your views on this, as well. This is a primarily 
an information session.
    Finally, for our perspective, vis-a-vis the 2010 budget, 
but you can see the implications for the Army down the line are 
considerable.
    Finally, Secretary Gates emphasized the importance of 
unmanned aerial vehicles (UAV) and electro-optical (EO) full-
motion video (FMV)--I like that--electrical-optical full-motion 
video. It sounds like a new band--video capability in overseas 
combat operations. Yet a relatively small percentage of the 
Army's Shadow UAVs are deployed overseas.
    Again, I would appreciate, to the degree you can in this 
context, state your views as to why this is the case, this 
small percentage of the Shadow UAVs deployed overseas, why is 
this the case, and is anything being done to increase the 
percentage of Shadow UAVs deployed overseas. This is a bit of a 
mystery to me.
    Then those are the essential issues. Everything clear?
    Before we begin, I would like to turn to my good friend and 
colleague from Maryland, the Honorable Roscoe Bartlett.

  STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE FROM 
   MARYLAND, RANKING MEMBER, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Bartlett. Thank you. Apologize for being late. There 
were a rash of accidents, and every access to the city was 
closed this morning. Very slow. Evacuating this city in a real 
crisis is going to be a challenge, isn't it?
    Mr. Chairman, I want to thank our witnesses for being with 
us. We are very fortunate to have each of you serving our 
country, and we are fortunate to have you here with us today.
    We are here to talk about the Army's aircraft programs. 
This is a very critical subject matter, and there are many 
important questions I know we on the committee have in regards 
to this subject.
    Unfortunately, we do not have a budget yet, and I 
understand the witnesses are prohibited from discussing 
anything in regards to the pending fiscal year 2010 budget 
request. However, there are still many things our witnesses can 
discuss, such as the conditions and performance of our current 
aircraft programs.
    Mr. Chairman, I would like to take this opportunity to 
recognize the incredible performance of our Army aviation 
soldiers and aircrews during the past seven years. Army 
aviation has truly been building the plane in flight.
    In the midst of a war in two very different theaters, the 
Army has completely transformed its aviation force structure, 
adapted to the enemy and the environment, and moved ahead in 
its modernization. I would ask our Army witnesses to please 
take this message of congratulations and gratitude for their 
incredible performance back with them to the Pentagon and pass 
it on to our soldiers as you visit them, whether here in the 
United States or abroad.
    Also on Iraq, the increase in Improvised Explosive Devices 
(IEDs) not only resulted in the Department pursuing more 
survivable vehicles, such as the Mine Resistant Ambush 
Protected (MRAP), but also increased the demand on rotorcraft 
and intelligence, surveillance, and reconnaissance (ISR) 
assets. And this demand will certainly increase as we grow our 
presence in Afghanistan while continuing to maintain a 
significant force in Iraq for the foreseeable future.
    Although I have many questions, there are two areas I hope 
to learn more about today. The first is in regards to Secretary 
Gates' recent comments on adding funding to the training of 
Army aviation pilots. While I applaud any increase in funding 
that provides training for our pilots, it seems to me that the 
shortage of equipment on hand, such as helicopters, is a more 
immediate concern.
    I realize we will have to discuss the details in our 
classified session. But in this unclassified session, I would 
like to hear from our witnesses if they are more concerned 
about the availability of aircraft or the availability of 
trained pilots.
    The second area I am interested in is in regards to the 
unmanned aerial vehicles. A lot has changed, technically, since 
operations began seven years ago. UAVs are one of our most 
promising new capabilities. What have we learned from 
operations in theater in regards to how we utilize this nascent 
capability, and what do you see in the future for UAVs? What 
new ways are you exploring for how to deploy and use these 
platforms?
    I look forward to hearing from our witnesses today, and I 
want to thank you again for your service to our country and for 
appearing before us this morning.
    Thank you, Mr. Chairman.
    Mr. Abercrombie. Thanks, Mr. Bartlett.
    Gentlemen, I assure you we did not collaborate on our 
statements when I mentioned that Members are concerned about 
these things and paying attention. I think Mr. Bartlett's 
remarks reflect that interest and concern.
    And I assure you we all join in his observations to you 
about what you have accomplished in Army aviation and with the 
personnel associated with it, and we all would appreciate you 
extending our grateful thanks, as well.
    This morning, we are going to go by regular seniority in 
terms of the questions and observations that will be made by 
Members. Next hearing, we will go in reverse order of 
seniority. So with that, if it is okay with Mr. Bartlett, I am 
going to start the request to the witnesses to begin their 
commentary. Silence is ascent, according to Thomas More.
    So who will go first? General Davis.
    General Davis. Sir, what I would like to do is just start, 
if I could, with just a quick opening statement. And again, 
Chairman Abercrombie----
    Mr. Abercrombie. You are going to speak for both? Is that 
correct?
    General Davis. Yes, sir. I will
    Mr. Abercrombie. General Crosby, you are doing support and 
backup here? Thank you very much.

STATEMENT OF BRIG. GEN. WALTER L. DAVIS, USA, DIRECTOR OF ARMY 
  AVIATION, U.S. ARMY; AND BRIG. GEN. WILLIAM T. CROSBY, USA, 
         PROGRAM EXECUTIVE OFFICER, AVIATION, U.S. ARMY

            STATEMENT OF BRIG. GEN. WALTER L. DAVIS

    General Davis. And again, Chairman Abercrombie, Ranking 
Member Bartlett, and other distinguished Members of the Air-
Land Forces Subcommittee, it really is a privilege for us to be 
here today to talk about Army aviation. First, I want to thank 
the committee for their continuing and enduring support for our 
Army, and specifically for our aviation soldiers and families.
    As you stated, Mr. Chairman, the demand on aviation 
capability has continued to grow, and we will soon have our 
Sixth Combat Aviation Brigade deployed, and that will occur 
here next month where we will have six in Operations Iraqi 
Freedom and Enduring Freedom.
    Concurrently, we continue to have a brigade committed in 
Korea, as well as about a brigade's worth of capability 
committed in other places around the globe. And while our 
operational tempo is very high, our commitment to ensuring our 
aviation force remains a vital and essential enabling 
capability not only to the Army, but certainly to the joint 
force, as well.
    And so, too, has the Congress's support, and specifically 
this committee's support, helped to enable that we have had 
full support for our aviation forces and for the programs that 
we currently have in effect.
    Recently, Secretary Gates did publicly present the key 
decisions that he will recommend to President Obama with 
respect to the fiscal year 2010 defense budget, and some of 
these recommendations do concern aviation programs. And I am 
sure, again, as you stated, Mr. Chairman, there are plenty of 
relevant questions that pertain to that.
    And we will do the best of our ability to answer those 
within the limitations that have been imposed on us by the 
current process that we are in. And I apologize in advance for 
any inconvenience that that may cause here. But we look forward 
as that is released and we are able to come back to talk about 
that.
    But with that, sir, again, we appreciate your support, and 
we look forward to your questions.
    [The joint prepared statement of General Davis and General 
Crosby can be found in the Appendix on page 33.]
    Mr. Abercrombie. Thank you very much, General.
    Members, including myself and Mr. Bartlett, may submit 
questions to you, or perhaps some of these things will be dealt 
with in the classified section. But for now, we are going to go 
to directly to Members for questions and observations and start 
with Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    All of us, I think, are a little concerned by the latest 
news that JCA, at least where the Army is concerned, appears to 
be being canceled. Most of us have spent a fair amount of time 
getting to the point where we appreciated the tactical need 
that JCA was going to meet, and that is one of the reasons we 
were willing to fund it.
    And I am curious to know what has changed with regard to 
the tactical need that JCA was going to fill that would cause 
us to think that maybe we shouldn't have been funding this to 
begin with, and we shouldn't fund it, going forward. If either 
of you can explain what has changed that would warrant not 
moving forward with JCA, it would be very helpful to me.
    General Davis. And Congressman Marshall, again, from my 
perspective and what I can say is that nothing has changed. I 
mean, we still have a requirement for----
    Mr. Abercrombie. Excuse me, General. I neglected to 
mention, just for a moment, Members have a complete set of 
charts in here with regard to various issues and that. So if 
you want to refer to any of that and then refer to the Members 
to the appropriate chart in the context of your answers, please 
do so, okay, if you feel that is appropriate or it would be 
helpful to the Members' understanding.
    Sorry. Thank you.
    General Davis. Yes, sir. Thank you.
    And again, nothing has changed with respect to the 
requirement that we still have for the capability that the JCA 
provides. And you said that, Congressman, which is we are 
currently conducting our missions for time-sensitive, mission-
critical distribution of logistics to the point of need. The 
work that we do in the austere environments, whether it is Iraq 
or Afghanistan, currently with our C-23 Sherpas contract there, 
of course our CH-47 fleet, but nothing has changed.
    And that is what I can say. We still have a requirement for 
the capability that the JCA provides.
    Mr. Marshall. I assume that, in the past, you have either 
presented the committee, or internally to the Secretary's 
office, detailed written descriptions of the tactical need that 
justifies JCA.
    Could you go ahead and hunt up all of that that has 
previously been provided to us, gather it and get it over to us 
again, rather than relying upon our ability to search our files 
to try and generate that information? We would like to see the 
case that has previously been made so that we clearly 
understand why it is that we have consistently thought funding 
this thing was a wise idea.
    General Davis. We will, Congressman. With respect to the 
concept of operations that was done, as well as the validated 
requirement, we will.
    [The information referred to can be found in the Appendix 
on page 63.]
    Mr. Marshall. Thank you.
    I have no further questions.
    Mr. Abercrombie. Is it clear, General, what Mr. Marshall 
would like?
    General Davis. It is, Mr. Chairman, with respect to the 
previous documentation.
    Mr. Abercrombie. Okay, because we want to be able to see a 
continuum of commentary, memos, whatever.
    General Davis. It is, Mr. Chairman.
    Mr. Marshall. If I could, there is a tactical need, I think 
a clear case can be made. We have already made it. We need to 
be just totally on top of what that case is as we consider what 
the Secretary is apparently going to propose. I don't really 
have a dog in the fight who manages this thing.
    I am not troubled by the idea that the Air Force might 
manage the program. But I am troubled by the idea that capacity 
that we thought was necessary might be set aside. And we just 
need to understand what the capacity of the need is as we 
evaluate whether or not we need to move forward.
    Mr. Abercrombie. The reason that Mr. Marshall's request is 
as specific as it is and why I support it is that we are having 
some difficulty in other contexts. Sometimes statements come 
out of the Secretary's office or elsewhere in the Pentagon that 
indicate, for example with the air tanker, that if an approach 
to purchase of these tankers is invoked by the Congress, that 
there would be expenditures forthcoming as a result of that, 
but we can't find anything where that was ever brought up 
before.
    I am just drawing you a parallel. I don't expect you to 
answer anything, or comment. But I have been following it for 
at least eight years now, and I don't have a clue as to what is 
being talked about. So we don't want to find ourselves out 
there having to answer questions to ourselves or to the public 
and not have any basis for understanding what the original 
rationale of the services were with regard to any weapons 
platform.
    General Crosby. Sir, if I might add, the program and the 
confidence that you showed in us to go after that requirement 
that General Davis spoke about, that program is on track. It 
has performed very well. We have two aircraft that have already 
been delivered and 11 ongoing contract to be delivered.
    So the confidence you showed in us to go and procure the 
system, we have met all the obligations. What will happen from 
here, again, that is to be determined by the Secretary and what 
they recommend to Mr. Obama.
    But we have met the obligations of what we promised you we 
would do in the program that we put together, and now we have 
to bow to the requirement of where it stands.
    Mr. Marshall. For the benefit of the Department here, it is 
not just the Army, but for all the branches, at least this 
member, and I suspect all of us, are going to be pretty 
consistent in insisting that we be given access to the entire 
argument that occurred, all of the information, all of the 
positions that were taken, that led to a particular decision by 
the Secretary.
    It is not going to be an instance in which that is the 
decision made by the Secretary, and Congress is not going to be 
given access to the arguments, the detail, etc., that led to 
that decision. We want to hear the case against the decision 
made by the branches.
    And we are going to want to have that case. We are going to 
want to hear that kind of information consistently throughout 
the process of considering authorization.
    Thank you, Mr. Chairman.
    General Davis. Understand, sir.
    Mr. Abercrombie. Thank you, Mr. Marshall.
    We will go to Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    I would like to yield my time to Mr. Miller, who has a 
commitment and cannot stay, and then I will simply switch with 
his time. Thanks.
    Mr. Abercrombie. Mr. Miller, please.
    Mr. Miller. Thank you very much, Mr. Chairman and Mr. 
Bartlett, for yielding the time.
    I have one two-part question, Generals. It is in regards to 
the shortage of rotary-wing aircraft dedicated to U.S. Army 
Special Operations Command (USASOC), particularly in 
Afghanistan.
    Can you give us a sense of the dedicated level of rotary 
wing support currently for USSOC? And also, can we expect that 
our special operators are going to be given increased rotor 
wing support to get them into the fight?
    General Davis. Congressman, I will try to answer that to 
the best of my ability.
    With respect to the special operations aviation, which 
again comes under U.S. Special Operations Command (SOCOM)--but 
if I could provide some framework, we did an exhaustive 
analysis of the capability demands for aviation specifically in 
OEF, and we did that at the request of the Office of the 
Secretary of Defense.
    And what we found, that there is, in fact, a shortfall of 
the special operations capability in Afghanistan that we are 
addressing, the conventional side, not necessarily a shortfall 
in capacity or capability, but on the special operations side.
    With that, as you know, Special Operations Command, even 
prior to 2001, was growing their aviation capability. And so 
they are still in the process of doing that. What has changed 
is, again, 2001 occurred, and we find ourselves in operations 
in Operation Iraqi Freedom (OIF) and OEF.
    And so they are growing their capability, specifically 
their MH-47s and their MH-60's, for increased capacity both in 
terms of numbers and, of course, their force structure that 
corresponds to that.
    Do they need to increase further? They are going through 
the process of analyzing and determining what their future 
force structure, and it will certainly compete with our others. 
But there is a thrust to increase their capacity.
    Mr. Miller. If you would, I would like a little more 
detailed answer in writing as to what the plan is, where we are 
going. And yes, we are all aware September 11th, 2001 happened, 
but that was some time ago. We have to continue to grow the 
force, and we know that special operations is, in fact, 
growing, and the shortfall is something that we should not 
continue to have.
    So if you would, I would like a written response that is a 
little more detail.
    Mr. Abercrombie. Mr. Miller, some of this we are going to 
deal with upstairs, and we will make certain----
    Mr. Miller. Unfortunately----
    Mr. Abercrombie [continuing]. I know that you maybe have 
other obligations. We will make certain that the detailed or 
broader, deeper answer will be provided.
    [The information referred to can be found in the Appendix 
on page 63.]
    Mr. Miller. Thank you, Mr. Chairman.
    Thanks, General.
    Mr. Abercrombie. Is that it? Thank you.
    Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman.
    Thank you, Generals, for being here today. We do appreciate 
your service.
    And I am a freshman Congressman, but I had the privilege of 
being with our troops in both Iraq and Afghanistan the week 
before last, and truly impressive people serving our Nation. 
Makes you very, very proud.
    And my question is really a follow-up to what Mr. Miller 
said, and I know we will have some more information upstairs. 
But had some conversations with some Marines in Kandahar, and I 
said, ``What do you need?'' And they said, ``Mobility.'' And 
then, I asked other generals and officers along the same lines 
and told them that answer, and there was agreement that we need 
mobility.
    And it doesn't take a lot of thinking about this to realize 
the limited number of troops in a large country, that that is 
what we need, and that is a subject that you guys are talking 
about, and we will get more detailed of an answer later on. But 
we need that answer, because we have seen other things that our 
troops have needed in the past that, for whatever reason, they 
didn't get as quickly as they needed them. And so I just pass 
that on as a comment.
    Thank you, Mr. Chairman.
    Mr. Abercrombie. Thank you, Mr. Kissell.
    We will go to Mr. Bartlett.
    Mr. Bartlett. Thank you.
    What are the plans to replace the C-23, the Sherpa 
aircraft, currently flown by the Army National Guard?
    General Davis. Sir, our plans for--and are--to replace it 
with the Joint Cargo Aircraft. It is a direct replacement for 
the C-23 Sherpas.
    Mr. Bartlett. Okay, which brings me to my second question.
    Yesterday's article in The Hill reported Department of 
Defense (DOD) is moving the Joint Cargo Aircraft program to the 
Air Force and cutting overall program quantities. This 
revelation came as quite a shock to us, because our memory was 
that the Air Force was kind of a reluctant partner in this 
joint procurement. Some might have said that they were dragged, 
kicking and screaming, into the original relationship.
    And now, the Army that had the original use for the 
aircraft, requirement for the aircraft, is not going to get the 
aircraft, and the Air Force, who really was very reluctant, 
hardly wanted into the program at all, is now going to have 
responsibility for the program and get all of the additional 
aircraft.
    In light of the reduced numbers that are being reported, 
can you shed some light on plans to address both the stateside 
Federal Emergency Management Agency (FEMA) mission handled by 
the Army National Guard and the Army time-sensitive, mission-
critical requirements for the transportation of cargo and 
personnel to forward-deployed Army units in areas of 
responsibility, particularly in Afghanistan? How are you going 
to do that without this plane?
    General Davis. Sir, if I could, respectfully, I would ask 
to--as I went back to Congressman Marshall's question, where we 
will provide the information that set the framework up to the 
point where we are now on a program that I just cannot talk in 
detail on on your questions with respect to what has come out 
in the press. As soon as it is releasable, sir, we will come 
back and talk in the detail that, quite frankly, you should 
expect us to provide you.
    What I can tell you is is that what we are doing in OIF 
with respect to that particular mission is doing it with a 
combination of rotary wing and contract fixed-wing to do the 
direct support, time-sensitive, mission-critical, and other 
rotary wing, for that matter, our UH-60 Black Hawks, to do that 
mission.
    Mr. Bartlett. If DOD was leaking this information, it would 
have been nice if they would have leaked a little of the 
rationale for it so we could be a little more comfortable with 
the direction they are planning to take us.
    Thank you very much, Mr. Chairman. I will look forward to 
our classified session, more discussion later.
    Mr. Abercrombie. Yes.
    General Davis and General Crosby, I realize you are under 
difficult circumstances here, but let me tell you something. I 
am not telling you something, but let me make an observation 
that should be taken back to the Pentagon.
    That information that was in the newspaper compromises this 
hearing. It puts us in a very difficult situation, puts you in 
a difficult situation. People talk about the Congress. I don't 
know of anybody in the Congress, not--in the upcoming 20 years 
that I will have been associated with this committee, I don't 
know of a single member ever--ever, under any circumstances, 
leaked or put information out to the press of a classified 
nature or of anything else having to do with what should be 
closely held until the proper time.
    What we are talking about here and what puts this hearing 
in particular difficulty--and it is more than irritating to me 
because you have already, on couple of occasions already, just 
the beginning of the hearing, have found yourself in a 
situation where you can't respond to Members over something 
that is already in the public domain. Now, that came from the 
Pentagon.
    It came from the Pentagon. I don't know if it came from the 
Secretary's office. But when the Pentagon starts playing games 
in public because you are having internal discussions or 
difficulties or tensions or confrontations over what should or 
should not be policy, particularly when it is to be reflected 
in the budget presentation yet to come.
    I mean, the Pentagon budget is being routinely discussed in 
detail in the press, and we are in a position where we can't 
explore it. We can't give answers to people, let alone to 
ourselves.
    Now, you are in this difficulty today, right, and it is not 
right. It is not right, and it should be stopped. Now, I 
realize the cynics out there, particularly in the press, will 
say, ``So what? That is what goes on all the time. That is our 
job.'' I am not blaming the press. They are pushing to get this 
information.
    But somebody over there, maybe even in the Secretary's 
office, is providing the details. You can't print something in 
the paper. I mean, you could lie, I suppose, but nobody said 
that that is the case, or they made it up.
    I mean, this isn't Fox News that is doing it. This is a 
respectable journalist operation rather than a vaudeville 
presentation. But it puts the committee, it puts Members in a 
very difficult--I won't say awkward, but it puts them in a 
position of where we can't exercise our responsibilities 
correctly.
    Now, if somebody in the Pentagon, even in the Secretary's 
office, thinks it is useful for this internal discussion or 
decision-making process to play it out in the press, it is not. 
It is causing you difficulty, believe me, and it is going to 
cause the Secretary difficulty, because Members are not going 
to be made into extras in a Pentagon scene that is going to be 
played out.
    Now, again, don't take this personally. You happen to be, 
unfortunately, the bearers of the responsibility--excuse me, 
having to take public responsibility for the irresponsibility 
of whoever or whatever office has involved itself in this kind 
of a thing.
    So I don't know. We are going to continue to--please try to 
answer as closely as you can to the Members' perfectly 
legitimate questions, or make your observations as close as you 
can, based on the information that is already out there.
    I don't want to get into a situation where I start pressing 
you, or Members start pressing you, saying, ``But this is 
already in the public discussion, because it appeared in the 
press.'' It is very difficult for Members here to pursue their 
line of questioning if you have to pretend that you don't know 
what they are talking about.
    I see heads nodding, but you understand the difficulty 
here. Mr. Bartlett's questions are perfectly reasonable, and 
they are perfectly reasonable. He is not asking you about 
classified data that we need to pursue in the next briefing.
    In the light of that, can you give him a little bit better 
answer?
    General Davis. Sir, what is not releasable is that which is 
in the resource management decision 802, which outlines, again, 
the programs and the programmatics of those programs. And so 
that is not releasable.
    Mr. Abercrombie. Okay. All right, I will stop with that.
    But that is the reason that should not be in the press. 
That is precisely the reason why this should not be part of 
some kind of internal game-playing in the Pentagon.
    It is a disservice to you, and it is a disservice to the 
fighting personnel in the field, because we are trying very 
hard here to be responsive to them, not to the machinations of 
some marginal gain against somebody else in an internal turf 
battle, or whatever it is, going on in the Pentagon. It 
undermines the capacity of the subcommittee and the committee 
to be responsive to you in your professional judgment as to 
what is necessary to support troops in the field.
    Mr. Bright, to be followed by Mr. Coffman.
    Mr. Bright. Okay.
    Mr. Chairman, thanks for this meeting.
    Thank you to the witnesses. Generals, thank you very much 
for being here today.
    And last week during a press conference, Secretary Gates 
stated that he had recommended to the President adding $500 
million to the fiscal year 2010 to ``Increase the throughput of 
pilots and maintenance crews for our helicopters, to help train 
more instructors, to help with the infrastructure, and possibly 
get more airframes.'' In addition, he noted that more up-to-
date maintenance facilities and additional classroom space was 
required.
    Now, this appears to be a very ambitious multi-year mandate 
in terms of personnel, helicopters and military construction 
that eventually will have a significant impact on Army aviation 
and a base in my district, Ft. Rucker, Alabama.
    My question is, have any detailed requirements, based on 
Secretary Gates' press conference, been provided to the Army 
aviation school?
    General Davis. Congressman Bright, again, as you know, the 
Secretary visited Ft. Rucker this past week and spent an entire 
afternoon with both the Training and Doctrine Command (TRADOC) 
commander and the Commandant, Major General Jim Barkley, to do 
a firsthand assessment of the capability that Ft. Rucker 
possess.
    So the Secretary's thrust in this in terms of additional 
resources is a good news story. I mean, the Training and 
Doctrine Command, and specifically Ft. Rucker, was working to 
increase their capacity even before this with respect to 
training an additional student load, as well as other 
instructor pilots, other already rated pilots, as well as we 
had an initiative to put additional capability there with 
respect to aircraft.
    What is currently occurring is that Training and Doctrine 
Command and General Barkley, they are doing the assessment on 
how best to apply those resources that the Secretary alluded to 
in the budget to have the most benefit, whether that is 
infrastructure, which certainly he noted in his press 
conference that there is the potential for that, whether it is 
their operation and maintenance funding, whether it is 
additional aircraft to support this increased ability to 
produce more pilots.
    And so that is ongoing right now. We do not have the 
details of that, but it is certainly ongoing. And as he said, 
we have time to do that in a very thoughtful way. That will 
certainly help.
    But it is a long-term process, as you know. It won't yield 
results overnight. But I will tell you that we are working 
very, very hard to ensure that we apply them in the right way 
and to do what they need to do, which is increase their output 
by an additional 300 aviators per year, is what they are doing.
    Mr. Bright. So there is no set number at this point in 
time, or the types of helicopters that might be added to the 
aviation school?
    General Davis. What we know is that we have a shortfall now 
of AH-64, which we are working internally with in the Army to 
provide some additional capacity, as well as UH-60 Black Hawk 
in the training base. And so we are working also to put 
additional aircraft there to give them more capacity.
    General Crosby. Sir, what I would like to add, as General 
Davis says, it is not an immediate thing. And I think what we 
need to give you all is the comfort level that all of the 
aspects of Army aviation are working together as we look at 
that. So as they consider procuring more aircraft, either 
moving them in or whatever, they are working with me about the 
lead-times to procure those aircraft and working with the 
industrial base to produce them.
    So we are not just doing this in a vacuum. It is all of the 
facilities, all of that is being done and considered.
    Mr. Bright. Okay.
    And I hope that, when the report comes in, that will 
include the infrastructure that we will need there. And you 
know this, but Ft. Rucker has been in existence quite a few 
years, and we do need additional infrastructure to handle the 
additional pilots and staff that is going to be coming through 
there. And hopefully, that report will reflect that. Is that 
correct?
    General Davis. It will, Congressman, in terms of the 
capability that he needs. And the infrastructure is part of 
that assessment right now.
    Mr. Bright. The concern I have is that, you know with any 
military construction (MILCON) project, it takes approximately 
five years from start to finish to get that project completed. 
And I am concerned that, with the additional workload and 
requirement placed by Secretary Gates, that we will fall--
hopefully consider that timeframe, and we can start things and 
upgrading the facilities right away, or soon, anyway.
    General Crosby. Yes, sir. While the Secretary was down 
there, he made the comment specifically about the facilities. 
And I believe we have a phone call each week with the five 
players in aviation together to discuss this. And that is one 
of the things General Barkley specifically addressed was the 
facilities, the time, and the ability to get that moving as 
quickly as possible to support the entire effort.
    So yes, sir, that is being considered, and we are looking 
for ways to streamline that, if you will.
    Mr. Bright. Good. And I will help you any way I possibly 
can.
    I was down last week and took a detailed tour of the 
facilities out there. So we need to very seriously consider 
that infrastructure upgrade in addition to the pilot upgrade.
    Thank you very much, and thank you for being here.
    General Davis. Thank you, sir.
    Mr. Bright. I yield back my time, Mr. Chairman.
    Mr. Abercrombie. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    I am new to the committee as well, a freshman Congressman, 
and one of the things that confuses me is where you delineate 
the responsibilities between the Air Force and the United 
States Army when it comes to fixed-wing aircraft for logistical 
support.
    General Davis. Sir, I guess the Army has been in the fixed-
wing business a long time, as you well know, Congressman. And 
where we delineate is with respect to how we characterize the 
mission of direct support, in direct support of a commander on 
the ground, and general support, which is a more broadly--I 
mean, to service many other areas.
    And frankly, within the timeframe of the delivery of that 
particular support and how it is prioritized and characterized, 
really, in terms of how it best supports our forces on the 
ground. So if the Army is conducting a direct support mission 
where we have the most responsive fixed-wing capability, 
support for, again, a time-sensitive, mission-critical type, 
whether it is ammunition, whether it is supplies, whether it is 
delivery of personnel to a point versus a more general support 
approach to providing that.
    Mr. Coffman. What kind of expeditionary airfield--what type 
of runway is needed for the Joint Cargo Aircraft?
    General Davis. It is designed to land in a more austere 
environment, a less improved environment, shorter field for 
take-off and landing, which again opens up the access to areas 
within our operations, or area of operations that we can 
actually execute those in what we currently have.
    Mr. Coffman. What is your relationship with the Air Force 
when it comes to procurement on the Joint Cargo Aircraft?
    General Crosby. The program as established today, sir, is 
what we call a joint program office, where Air Force personnel 
sit right with my Army personnel in the office. The Army today 
has the lead on the program. They participate in there.
    There was a plan for a split buy. The training was planned 
to be a joint effort to train one location and train both 
sides. We have already graduated one class, loadmasters and 
pilots, and are about to start the second. And those are for 
Army crews, because the first fielding was for Army.
    But the Air Force is engaged on a day-to-day basis as part 
of that program. Their requirements are a little bit unique in 
the Air Force than the Army in the way that we track and do 
things. But overall, the one contract for the system is the way 
we are set up right now.
    Mr. Coffman. And the Air Force is--is the training joint 
between the Air Force and the Army, or are these just Army 
pilots?
    General Crosby. Today, we are only training Army pilots 
because the first deployment was for Army personnel. The 
standardization and the verification of that training system is 
Army. But the training itself is designed to be a joint 
training where Air Force and Army personnel would both go 
through the same training program, yes, sir.
    Mr. Coffman. Is the Air Force--what is their mission in 
comparison to your mission in terms of utilizing this aircraft?
    General Crosby. Sir, I don't know that theirs is any 
different, aside from what General Davis talked about with the 
time-sensitive, mission-critical cargo is our mission, theirs 
would be in the same light, I would think.
    General Davis. They will employ the aircraft in a general 
support role with the ability to conduct direct support of a 
ground commander and our forces on the ground, much as we will 
employ ours in a direct support, but we will have the ability 
within a system where there is visibility for all of the 
theater fixed-wing support assets to have the ability, if they 
are not committed to doing a direct support time-sensitive, 
mission-critical mission over a period of time, that they would 
have the ability to reach in and use those assets to conduct 
general support missions.
    So currently, again, they come after us in the fielding 
plan for JCA, but again, we have worked the concept of 
employment to utilize those assets either in a direct support 
or a general support role.
    Mr. Coffman. How much is this enhanced from its 
predecessors in terms of logistical capability?
    General Davis. It is clearly a greatly enhanced capability 
over what the Army has with our aging fleet of C-23 Sherpas 
right now, which are a old, slow aircraft. It performs 
magnificently in theater right now, but it performs, again, in 
OIF. We do not have it deployed to OEF. So it is a leap ahead 
in capability for early replacement of the aging C-23 fleet.
    Mr. Coffman. Thank you, Mr. Chairman.
    Mr. Abercrombie. Thank you, Mr. Coffman.
    Mr. Massa, to be followed by Mr. Wilson.
    Mr. Massa. Thank you, Mr. Chairman, and I appreciate the 
opportunity to be here today.
    General Davis, thank you very much for your testimony. I 
apologize in advance in that I am a freshman Member of Congress 
from western New York State, and we don't do a lot of Army 
aviation there. So if I could just ask some simple questions to 
get some baseline education, I would find that helpful.
    Is it true that the CH-47 is the Army is premiere, if not 
only, heavy-lift helicopter?
    General Davis. That is correct, Congressman. It is.
    Mr. Massa. Would you characterize that the Army is now 
being given additional tasks and requirements to use air 
mobility assets in the high altitudes--in high-density 
altitudes of Afghanistan?
    General Davis. Congressman, again, you know we are 
deploying the additional brigade, which has additional CH-47Fs 
that are going as part of the 82nd Combat Aviation Brigade. 
Also, there are contract air that is providing that mission 
right now.
    So I don't know if I would characterize it as additional to 
what we were doing now. Certainly, it is a capability that is 
needed in theater, an additional capability that is needed in 
theater.
    Mr. Massa. So if it is an additional capability, there are 
additional requirements, so the answers could be yes.
    General Davis. Again, some of those requirements, sir, are 
again being provided by CH-47, and certainly it could displace 
perhaps contract air that is being used.
    Mr. Massa. My experience with people returning from that 
theater have told me, at the operational level, that the number 
one requirement shortfall in Afghanistan is consistent 
capability for high-density altitude and high-altitude vertical 
air mobility. It is also my understanding that the CH-47 and 
all variants is really the only aircraft in the Army inventory, 
coupled with the CH-53 Echo in the Marine Corps, that can 
provide that, and that the '60, frankly, doesn't have the lift 
capabilities to meet the requirements that the ground 
commanders need.
    I note in your chart that there is a requirement for 413 
CH-47 aircraft inventory-wide, and we currently have 407 of all 
general of air--plus additional 54 for special operations. And 
by my back-of-a-napkin, that gives me a 54-aircraft shortfall.
    Sir, can you please provide me an answer in writing for the 
record, if not today, if there is any way to accelerate the 
procurement of these aircraft in a hot production line so that 
finally, as we spend the billions of dollars that we spend in 
the Department of Defense, we can actually get something to the 
troops that they need, when they need it, and perhaps before we 
leave? Is that possible?
    General Crosby. Sir, I can certainly give you the details 
of the procurement plan to get us up to that acquisition 
objective. The Army has committed at this time to resource to 
that objective.
    The challenge we have, we have lost 27 aircraft in the 
theaters plus in the training and getting them to the theaters. 
And replacement of those or upgrade to an ``F'' program 
encompasses both new builds as well as remanufactures of the 
old airframes.
    And the capabilities within the production line require 
that we remove some aircraft from the fleet. So it is an acute 
balance, not of just resources available.
    Just throwing more money at it won't increase the 
production line. We then incur operational impact of how many 
we take out of the field in order to do that. But we can 
certainly lay out for you the by-year plan of where we are 
going to get to there.
    Through the supplementals, we have been very fortunate that 
you all have been very supportive of us replacing the ones that 
we have lost, but there is a time lag to do that, as well. All 
of the sup flows down to the sub-vendors. It is not a fast 
process. I wish it was, but it is not a fast process.
    Mr. Massa. Well, thank you, General. And I would just 
observe that, while it is not a fast process and it does, in 
fact, require planning and execution, if we start now, maybe 
two years from now we won't have to ask questions again.
    And while I understand, with great respect and deference to 
the uniformed officers present today, that the Army is fully 
committed and resourced to this program, only three weeks ago 
we heard the exact same commitment to a program we found out 
yesterday was canceled. So it creates somewhat of a testimonial 
credibility gap when that is the answer that we receive.
    So I do look forward to an exceptionally detailed briefing 
on the CH-47 program, and that I happen to believe, and I am 
certain--I could be wrong, and I hope somebody will tell me one 
way or the other--that the CH-47 program, as far as it applies 
to operations in the global war against terrorism, it is 
probably the fulcrum piece of operational equipment in Army 
aviation command today, if not the number one at the very top. 
So I am going to commit resources, time and effort to learning 
and understanding this program in as much detail as it takes to 
help whoever has to make the decisions get it right.
    General Crosby. Understand, sir, and I appreciate that 
support.
    I do agree with your assessment of the capability, the 
flexibility that that airframe brings. It is a great capability 
that we in the Army share. It is the one that can operate at 
those high altitudes because of its tandem rotor capability. It 
doesn't suffer from the tail rotor loss effectiveness of those 
low-density altitudes, so it is a great capability.
    The Army is committed to it, and I think we can lay out for 
you and show you will be convinced just how committed we are to 
that program.
    Mr. Massa. Thank you.
    And my last question is, General, I noticed that you are 
air assault qualified. And it would be my understanding that 
there are only two twin-rotor helicopters that can both do the 
rappelling mission and the parachuting mission required by 
Special Forces, one of them in Army, one in the Marine Corps. 
The Marine Corps is currently, I believe, not yet fully 
certified for the V-22 in that operation.
    So it adds another layer of operational requirement, 
commitment and importance to this helicopter in that it has 
been explained to me to date. And I look forward to receiving 
your detailed instruction, education and explanation.
    [The information referred to can be found in the Appendix 
on page 63.]
    General Davis. Congressman, if I could add one thing that 
also would provide some context as well, we are going to 
undertake--because you mentioned that as force structure, and 
frankly is what we have as our objective enough.
    And so we are going to take a hard look internally within 
aviation. We are going to conduct aviation study two, which the 
Chief of Staff of the Army has directed us to do, to take a 
look to see if we have our structure right with respect to the 
missions that we find ourselves in now, and of course as we 
look forward into the future on that.
    So I just wanted to provide some context as well in terms 
of looking at the structure and the numbers of CH-47Fs, along 
with our capability, as well.
    Mr. Massa. Thank you very much, Mr. Chairman. I yield back 
the balance of my time.
    Mr. Abercrombie. Thank you.
    Mr. Wilson, to be followed by Representative Fallin and 
Representative Hunter.
    Mr. Wilson. Thank you very much, Mr. Chairman.
    Generals, thank you very much for being here. I have a 
great appreciation of what you do.
    I represent a community near McEntire Joint Air Base at 
Eastover, South Carolina. I have had wonderful visits there. I 
know the professionals that you have trained.
    In fact, just two weeks ago, I was in Iraq, and we were on 
an Apache helicopter traveling around the country. And as I was 
departing, for the first time I could look down and actually 
see the floorboard. And on the floor was a Palmetto tree and 
crescent, and so those are my people.
    And so it was just a wonderful experience, so I know how 
proud they are of their service. And on visiting with troops 
from South Carolina, it just warms my heart to see their 
enthusiasm, their competence and capability, and that it is 
also very personal.
    My third son--I can't wait until July for a change of 
command. He will be the commander of the 351st Aviation Support 
Battalion at Sumter, South Carolina. And then my fourth son, 
Army ROTC at Clemson, last year graduated from Air Assault 
School at Ft. Knox, Kentucky. My wife is not pleased about his 
ability to jump out of a helicopter, but I am, and of course he 
is. So thank you for what you do.
    And General Davis, in your written testimony, you state 
that the Army will proceed with the modernization of all AH-64A 
Apache battalions in the National Guard by remanufacturing two 
of the battalions and cascading the remaining two. Which 
battalions will be remanufactured or cascaded?
    General Davis. Congressman, again, if I could--first, I 
want to thank you for your service and that of your sons. We 
appreciate that. There are many, many, and I am sure there are 
other Members that may have children in uniform, as well, so we 
thank you very much for that.
    I know how proud you are of them. I have a son at Ft. 
Rucker right now getting ready to go to flight school, or he is 
in flight school. But again, I appreciate that.
    Mr. Wilson. Well, military service is opportunity, and so I 
am just grateful for the opportunities you are providing the 
young people of our country.
    General Davis. Again, sir, I am so excited about thanking 
you that your question, again, so I make sure I answer it.
    Mr. Wilson. It is about the modernization of the A to D.
    General Davis. Yes, sir.
    If I could provide some context, sir, when we were in the 
process of deciding on Armed Reconnaissance Helicopter, and 
also as we looked at the total force structure in our Army, 
both active and Guard in reserve, there was a thrust to balance 
the capability within the Army National Guard. And so we were 
going to balance with replacements for AH-64s in four units to 
give a balanced AH-64 Armed Reconnaissance Helicopter 
capability within the Guard.
    Of course, with the termination of ARH, we have to regroup. 
All along, though, we were going to modernize two of those 
battalions. The other two battalions within the National Guard 
that are currently ``A'' model battalions, we would have to 
determine whether that was the best course of action, given the 
outcome of the ARH.
    Right now, what is approved by the Secretary of the Army is 
a strategy to modernize all four to AH-64D. And of course, the 
first in line that is working right now is the battalion out of 
Pennsylvania National Guard. But our intent is, and we have a 
plan to, modernize all four of those battalions.
    Mr. Wilson. Thank you.
    Additionally, as a Member of Congress, as a veteran myself, 
but particularly as a parent, to me, UAVs, Unmanned Aerial 
Vehicles, are so reassuring. I had two sons. My oldest son was 
field artillery serving in Iraq. Another son, a doctor in the 
Navy. I just always hoped there was one overhead.
    And I was really encouraged to see that the number of UAVs 
have increased from six to 1,000 in theater in the global war 
on terrorism. What is the role of the National Guard with UAVs?
    General Davis. In the area of National Guard, we will field 
the Shadow system to the National Guard. Again, what our 
priority of fielding is is to, certainly with our smaller ones 
to our brigade combat teams and the battalions below for Raven, 
for the handheld, for the Shadow to our brigade combat teams, 
and of course the larger extended-range multipurpose to that.
    But we do have to take a hard look, again, at what we are 
going to field to the National Guard as well as what is our 
capability and, frankly, our ability, resource-wise, to field 
the other systems as well, specifically the Extended-Range 
Multi-Purpose (ERMP) UAV.
    Mr. Wilson. Well, again, thank you. I know, as a parent, it 
is so meaningful. And also, I want our enemy to know of our 
capabilities. So, thank you very much.
    Mr. Abercrombie. Thank you.
    Representative Fallin.
    Ms. Fallin. Thank you, Mr. Chair.
    I would like to visit with you about the Aerial Common 
Sensor (ACS). And if you could give us a current status of the 
Army's plan to re-launch the ACS development program, and where 
are we at right now?
    General Crosby. The Aerial Common Sensor, as you know, is 
managed by a different Program Executive Officer (PEO). 
However, because it is an aerial platform, my office will 
participate in that selection.
    There is a validated requirement. There is an existing 
program to do so.
    My involvement of my folks will be to actually sit and be 
part of the selection board to select a platform that the 
sensors will be mounted on. And of course, it is to replace 
some existing--several different platforms that we have today, 
and to bring and fuse those sensor capabilities together.
    The details of the program, the schedule and all that, I 
can take that as a question for the record and get you the 
details of that, if that is what you need, ma'am.
    Ms. Fallin. Okay. Thank you very much.
    And one other thing. On the aircraft survivability 
equipment, I know you have had some delays in the development 
of a successful countermeasure system. Now, what is the 
capacity of the current aircraft survivability equipment to 
adequately address the current and anticipated threats to the 
Army aircraft? What kind of progress are we making on that?
    General Crosby. We have made significant progress. And as 
you know, when you are dealing with threats, we have quite 
often over-simplified the threats that are out there. Those 
threats are our enemy is very creative and innovative and able 
to adapt. So it is a constant upgrade process to manage these 
systems.
    Our current system is called a Common Missile Warning 
System (CMWS), and we are still fielding the fifth sensor to 
significantly improve some vulnerabilities we identified. To go 
any further than that, ma'am, I would request we do that in the 
classified session after, if that is okay.
    Ms. Fallin. All right. Sure. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your service to our Nation. 
We appreciate you.
    Mr. Abercrombie. We are going to go in order of appearance, 
so we will go to Mr. Hunter, and then to Ms. Giffords.
    Mr. Hunter. Thank you, Mr. Chairman.
    Thank you, gentlemen. Could you give me a non-classified, 
not-too-down-deep-in-the-weeds status of Task Force Observe, 
Detect, Identify, and Neutralize (ODIN) in Afghanistan?
    General Davis. Congressman Hunter, again, thank you.
    Yes. From a large scale, again--and I think you had been 
briefed previously that the timeline that we are on for the 
deployment of the resources that will comprise Task Force ODIN 
in Afghanistan is on track right now. Of course, what they have 
done is consolidated assets that were already in Afghanistan, 
certain capabilities, to form the nucleus of it.
    An initial operational capability had been declared for 
that capability in the late winter-early springtime, and so we 
are on track to continue to push that capability over for a 
full operational capability some time in the late summer.
    Mr. Hunter. Are you doing anything in the meantime--you 
have all seen the same graphs that I have of IEDs going up, 
casualties going up, deaths going up in Afghanistan while they 
are going down in Iraq due to IEDs right now.
    So we are losing soldiers and Marines literally probably 
today, we will lose a few because the Army and the Marine Corps 
are not over-watching the roads well enough. And the Marine 
Corps might not have the assets to do that, but the Army does. 
Are you doing any stopgap right now before ODIN is in place 
totally to stop our soldiers from dying?
    General Davis. Congressman, I would have to take that for 
record to find out exactly what is being employed in theater 
with respect to the different regional commands, and 
specifically to the unmanned aircraft systems or other fixed-
wing risk to ISR systems.
    I would tell you, again, that as we flow forces in, again, 
I mentioned the Combat Aviation Brigade that flows in that 
brings its own capability with it. Certainly for the rotary 
wing capability, but as the BCTs come in, as well, they bring 
the Shadow and the Raven systems to give them the risk to ISR, 
the sensor capability.
    [The information referred to can be found in the Appendix 
on page 63.]
    Mr. Hunter. Are you using Constant Hawk right now in 
Afghanistan?
    General Davis. It deploys later in this year.
    Mr. Hunter. Got you. So Constant Hawk, with the same 
sensors that it has on it in Iraq right now, it is going to be 
put to use in Afghanistan later on this year?
    General Davis. Yes, it is.
    Mr. Hunter. Are you familiar with the Angel Fire aircraft? 
The Angel Fire aircraft is a C-12 with the same sensor array 
that Constant Hawk has?
    General Davis. We are, Congressman, familiar with Angel 
Fire.
    Mr. Hunter. Did you know that we had four aircraft sent 
home from Iraq as opposed to re-deploying to Afghanistan, and 
that was due to Central Command (CENTCOM) and the Army saying 
that those were not needed in Afghanistan right now, as we have 
a severe lack of ISR in Afghanistan? We are actually sending 
aircraft home from Iraq back here and letting it sit on the 
tarmac here while we have guys dying in Afghanistan. Were you 
aware of that?
    General Davis. Congressman, I was aware that the decision 
had been made--and again, by the theater commander in terms of 
re-deploying a capability. I know that, at least on the Army 
staff, our senior intelligence officer, our G-2 of the Army, 
assessed that capability in terms of its--whether you could 
maximize that in the area of operations in----
    Mr. Hunter. Once more, it has the same sensor array as 
Constant Hawk. So if you want Constant Hawk, I don't understand 
why the Army aviation wouldn't want a UAV or a C-12 with the 
exact same sensor array as the UAV that you are asking to come 
into theater later this year, and you could have it right now, 
literally right now, over-watching the roads with that same 
sensor array.
    And it just seems silly to me that you would re-deploy 
something from Iraq back here where it is going to be mission 
impossible now to get it back overseas to Afghanistan outside 
of being in some nice, big Army program that spends billions of 
dollars to re-sensor it and get it back over to Afghanistan.
    So instead of doing the smart, efficient thing, for Army 
aviation to say, ``Hey, wait a minute, we have four aircraft 
that we can use right now in Iraq, we are simply going to fly 
them over to Afghanistan and use them right now as a stopgap 
measure until ODIN is in place,'' the Army lost them now.
    And I think the Air Force has them now or something, and 
the Air Force is actually going to put them to good use 
probably sooner than the Army could, but the Army and CENTCOM 
had the ability to do this. And it is unfortunate that the Army 
missed that opportunity to protect the soldiers and Marines 
over in Afghanistan right now.
    Thank you, Mr. Chairman.
    Thank you, gentlemen.
    Mr. Abercrombie. General Davis, I am a little confused by 
the answer. Maybe not confused. I am not sure there was an 
answer. What is the current status of the Angel Fire aircraft?
    General Davis. Chairman, I can answer the question of what 
is the current status. It is a Marine Corps aircraft. I don't 
know where it is with respect to----
    Mr. Hunter. Not anymore. If the Chairman would yield, it is 
not a Marine aircraft program anymore. The Marines gave it up 
because they, for some silly reason, said that they didn't want 
it either. So the status of it is it is on a tarmac here, Mr. 
Chairman----
    Mr. Abercrombie. I understand that. The Air Force and the 
Marines developed this. You said earlier that there was 
compatibility between the services with regard to the 
utilization of aircraft or whatever it may--helicopters, 
whatever, in terms of service for an immediate mission, and you 
separated what was Air Force and what was Army on the basis of 
general application as opposed to specific mission.
    And where the Angel Fire is concerned, it is superior--at 
least this is my understanding, and Mr. Hunter has a comment on 
this. If I don't have it down correctly, feel free to let me 
know--is superior in its capacity to deal with what we are 
speaking of here.
    The question to you is why was it returned--why are these 
aircraft here in Virginia? Why? When I said status, maybe I 
mis-spoke. I am not asking you to account for its present 
status. I want to know the rationale. What is the reasoning? I 
don't believe you answered Mr. Hunter. I am not trying to take 
your time, Mr. Hunter, but understand I don't believe--pardon 
me?
    Mr. Hunter. I am out of time----
    Mr. Abercrombie. Oh, okay. I am going to exercise my 
prerogative, then, a little bit.
    I don't understand that. Secretary Gates says that we need 
this capability. We have spent hundreds-of-millions of dollars, 
by my accounting, to try to develop this capability. We have 
sent questions to the Vice Chief of Staff of the Army, the 
Joint Staff, CENTCOM, the Air Force, and we can't get an 
adequate answer.
    And so I was hoping at this hearing that we could get 
something from you with regard to this issue.
    General Davis. Chairman, with all respect, if I could take 
for record the concerns of Congressman Hunter and yourself and 
come back to lay out the rationale and analysis that was done 
by the theater commander, as well as the service, with respect 
to this capability, as well as our own assessment that was done 
by the Army staff on why not to either retain it in OIF and-or 
move it between OIF and OEF, which is a CENTCOM decision, as 
you well know, but I would respectfully request to come back to 
you with that level of detail that you are asking for here in 
terms of the assessment that was done, because I do not know 
the exactness----
    Mr. Abercrombie. Weren't you briefed on this? Weren't you 
briefed on this, that this issue would, in all likelihood, come 
up?
    General Davis. Sir, I was briefed that Angel Fire would 
come up. Some of this will go into the classified that we can 
talk about there, but I did not have a detailed----
    Mr. Abercrombie. Are you prepared in that--we are not to 
the session yet. My suggestion to you is is that, if you are 
not prepared, that somebody get in touch with somebody who is 
prepared to come to the classified--if you think that is where 
it has to be discussed, that is fine with me. I will take your 
word on it. I don't know if Mr. Hunter will be able to make 
that session or not, but other Members are interested, as well.
    Mr. Marshall has a follow-up on what I am speaking of, and 
then we will move to Ms. Giffords.
    Mr. Marshall. Mr. Chairman, we had a pretty good classified 
hearing with the Task Force that has been assembled across the 
services by the Secretary to move these kinds of assets forward 
as rapidly as possible. And I would suggest that perhaps the 
Chairman, through staff, might make an immediate inquiry to 
that Task Force about this particular situation. Seems to me 
that Task Force is exactly the right group to respond to us 
with an explanation for why that asset isn't forward.
    Mr. Abercrombie. Well, we have put that forward, and they 
declined to respond. Now, are you--at this stage.
    General Davis. I am not prepared, sir, to talk the level of 
detail that you are asking here in terms of the assessment.
    Mr. Abercrombie. Okay. Can you get someone that is prepared 
by the time we get to the classified section today?
    General Davis. I will attempt to do so, sir, but I can't 
make a guarantee right now. I apologize.
    Mr. Abercrombie. All right. But my mother used to say, ``A 
word to the wise should be sufficient.'' If you can't settle it 
today, it is going to have to be settled very, very quickly. 
This can't be put off any longer. We are not looking for 
villains. We are trying to support people in the field. Okay?
    General Davis. Understand, Mr. Chairman.
    Mr. Abercrombie. Thank you.
    Is that all right, Mr. Hunter?
    Mr. Hunter. Yes.
    Mr. Abercrombie. Representative Giffords. Thank you for 
your patience.
    Ms. Giffords. Thank you, Mr. Chairman, Ranking Member 
Bartlett.
    And thank you, General Crosby and General Davis, for your 
service.
    I have a couple questions specifically about the Unmanned 
Aerial System (UAS). Specifically, can you please elaborate on 
how the Army Sky Warrior UAS system is going to be used in 
terms of its mission, relationship to the Predator program that 
the Air Force runs?
    General Davis. The Sky Warrior, we are going to field our 
first quick-reaction capability of four systems this summer in 
OIF, and they will be used in direct support of the assignment 
of the division that they will go to, or to the corps that they 
will go to. So they will be used in direct support of our 
forces on the ground there.
    Ms. Giffords. General Davis, again, the differences between 
coordination with the Air Force program, I mean, is there a 
strategy, the coordination, or are you working specifically 
from the Army's perspective and not looking at the--obviously, 
this is new type of technology and the possibilities that it 
could be used collaboratively.
    General Davis. Again, the capability is somewhat similar. 
The ERMP will deliver more capability than the current Air 
Force Predator does. However, again, the Predator is used in a 
theater-wide role prioritized by the theater commander.
    In the case of ERMP, or the Sky Warrior, in this case, 
again, it is an asset that we will field directly to our 
divisional elements. They will be resident in our Combat 
Aviation Brigades, and again, the division commander will 
determine--the ground force commander will determine the 
prioritization of how that asset is used. And so it won't be 
apportioned or allocated based on theater-wide requirements for 
that capability.
    Ms. Giffords. In terms of what is happening down at Ft. 
Huachuca, one of the challenges we have is with the Federal 
Aviation Administration (FAA) and the restrictions that they 
are putting on over-flights. And I am curious about the 
challenges to unit training and readiness, but particularly in 
relationship to the Guard units. So if you could please address 
that, if you are working with the FAA, or what the plan is 
there?
    General Crosby. Boy, that is a mouthful.
    Ma'am, the thing that we are struggling with with the UAS 
is operations in the FAA airspace. And you talk about the 
challenges we have there, we are learning with the FAA as we go 
forward.
    What we originally started out with some of these programs 
and the capabilities within them as far as control, utilization 
of sensors and the hazards associated with them, we are now 
learning that the FAA is not comfortable with that. So we are 
having to build in some redundancies in there, just as you 
would with a manned aircraft, in order to be able to operate in 
that airspace.
    Today, to do training at Ft. Huachuca, which I know you are 
very familiar with, we have to really block off a lot of 
airspace in order for us to be able to train in those areas. 
That will be a very difficult situation outside of places like 
Ft. Huachuca that have significant airspace allocated to do 
that.
    We are working very hard with the FAA every day trying to 
address that. The challenge that we are going to have to have 
with our Guard and Reserve is they are not normally located at 
places that are going to have those kind of ranges. So our 
approach today is to try and build in those redundancies and 
get to the point where--I mean, we are spending a lot of effort 
and see and avoid technologies.
    Well, that is easy with a manned person in the cockpit, not 
so easy with the UAS. Those are the kind of paths that we are 
pursuing. It is unknown territory with FAA, and we are learning 
as we go. That is not a great answer, but we are pursuing it as 
diligently as we can.
    Ms. Giffords. One final question. In terms of the training 
for the cargo delivery mission for the UASs, is that something 
that you see taking place in areas like Ft. Huachuca, or you 
would have specific locations where you are looking at for that 
training piece?
    General Crosby. Army aviation took over to be the proponent 
for the UAS systems. But because our focus today in the Army 
has been on RSTA, or Reconnaissance Surveillant Targeting 
Acquisition, Ft. Huachuca being our intelligence center has 
been--there has been an inseparable marriage or link there, if 
you will, between the two communities.
    Today, as it stands, I have no requirement been--to me to 
do a cargo version of a UAS. Is that coming? I can't predict a 
crystal ball. But I would think, as we continue to expand on 
these capabilities, that would certainly--the potential is 
there for the future.
    Today, as we have it, with the UAS systems we have and the 
Army, we are focused on reconnaissance and surveillance 
targeting acquisition.
    Ms. Giffords. That is true. But looking at future roles for 
UAS is certainly the cargo delivery is a potential. So are you 
saying that there are no dedicated locations at this point, or 
there is no decision to do training in specific areas?
    General Crosby. Simply, I don't have any resources today 
because, if there is no requirement, they don't give me the 
resources to pursue that. There is probably some effort ongoing 
in the science and technology arena with the Defense Advanced 
Research Projects Agency (DARPA) to look into those things. But 
as far as any plans for the training, until they get a program 
of record to pursue, we have not gone down that path, frankly.
    General Davis. But I think, if I understand, ma'am, kind of 
the thrust of your question, because we are doing joint 
training at Ft. Huachuca on our other systems as the Marine 
Corps, and we saw their initiative to take a look and try to 
determine whether there is a contractor out there that can 
provide the capability that they need for cargo, then where 
would you train it.
    Certainly, we do have to assess the ability to do that at 
some locations. That could be Ft. Huachuca, because, again, we 
do do the joint training there, or another location. Don't 
know. So we would have to do that and work in concert with the 
Marine Corps in that case.
    Ms. Giffords. Thank you.
    Mr. Abercrombie. We will go to a second round. But if we 
can stay brief, or if the Members can defer questions, I want 
to get to the classified section of the briefing as quickly as 
possible.
    Mr. Bartlett?
    Mr. Bartlett. Thank you. I have one brief, quick question.
    As I noted in my opening statement, we were pleased that 
the Secretary has advocated additional funding for pilots. But 
as I looked at the readiness chart, I saw a whole lot more red 
in the equipment column than I did the personnel column.
    Did I read those charts wrong? And what concerns you more, 
availability of equipment on hand, or personnel?
    General Davis. Congressman, you did not read the charts 
wrong. I mean, it does reflect that equipment readiness is 
primarily a driver for the overall readiness of many of our 
aviation brigades. And we can talk in more detail, sir, of 
course, in the closed.
    But they don't necessarily reflect--a unit might have 
equipment shortfalls, but they might not be aircraft. They may 
be other systems. They could be trucks. They could be other 
ground support equipment. So while you didn't read them wrong, 
they aren't necessarily reflective of an aircraft shortfall.
    Of course, the units that we deploy to combat go at their 
full complement of equipment, to include aircraft. And so that 
is, of course, where the priorities. We had mentioned, 
Congressman, again, that we have many, many losses of aircraft, 
over a brigade's worth of losses which, gratefully, you have 
provided the funding to get those replacements. That takes 
time.
    So in some of the units that do have readiness reflected in 
their equipment, there are shortfalls of aircraft. And we work 
hard, of course, to prioritize moving aircraft to those units 
to give them their full complement that are either in combat or 
in the trained and ready phase of their preparation to go to 
combat.
    So we can talk into somewhat more specifics, of course, in 
the classified, but they don't always necessarily tell the 
story of the shortfalls just by the rating that they are given, 
the red.
    Mr. Bartlett. Thank you.
    Look forward to that, Mr. Chairman, because I was somewhat 
confused, if more red appears in the equipment column, why we 
are putting more money in the personnel column. Look forward to 
the classified briefing.
    Mr. Abercrombie. Can you be prepared, then, particularly as 
we move toward the defense bill, to let us know what the 
equipment differentiations are so that we don't have any 
confusion----
    General Davis. We can, Mr. Chairman.
    Mr. Abercrombie [continuing]. With regards to aircraft 
versus some of the other what you mentioned?
    General Davis. We can, Mr. Chairman, yes.
    Mr. Abercrombie. If you look at the charts--by the way, we 
do read the charts, you know, so if anybody is over there 
saying, ``Why are we doing this,'' we pay attention to what you 
put there.
    Maybe you need to have some addendum or an appendix that 
shows what some of that means. I understand why you put the 
chart together and the way it has been put together, because 
you have to have a picture for us. But then, maybe we need some 
of the details as to what makes up that picture so that we can 
handle questions like that.
    Mr. Marshall, do you want to ask something at this stage?
    Mr. Marshall. I don't want to delay getting to the closed 
session any longer. I would just simply like to say that 
appreciate very much the service that you and all of those that 
you command provide us. Air dominance, air mobility, air 
surveillance, just critically important to our success for the 
safety and effectiveness of our missions. So what you are doing 
is terribly important to all of us, and we on our part will do 
what we can to assure continued air dominance, air mobility, 
and air surveillance capacities that are needed for our ground 
forces.
    Mr. Abercrombie. Thank you, Mr. Marshall.
    And with that very fine commentary that I believe reflects 
all our thoughts, I will bring this--unless you have final--Mr. 
Wilson? To think I was inches from a clean getaway.
    Mr. Wilson. No, no. Hey, Mr. Chairman, thank you.
    Again, I appreciate so much the capabilities of UAVs. I 
have had the opportunity to see the capabilities of UAVs, to 
monitor the Basra rail yard. To be able to note the movements 
of rail traffic, truck traffic, whatever, how helpful that was 
to protect American lives.
    I have seen the recounting of a mortar attack on a base, 
and then, subsequently, the perpetrators putting the mortar in 
the back of the vehicle, and then a Hellfire missile 
dispatching them, and how wonderful that was and the 
capabilities, again, protecting our American service members. 
Additionally, I have seen the coverage of roadways, where you 
can detect where an IED has been placed, protecting our 
soldiers.
    With all of that, something that has concerned me is the 
coordination between the Army, Marine Corps and Air Force with 
the different competing systems. How do you coordinate and get 
real-time immediate information to our troops on the ground who 
are in harm's way?
    General Crosby. The one program that falls under my project 
manager for Unmanned Aerial Systems, we have the one system 
remote video terminal and the one-system ground control 
station, which will become the universal.
    But they have a common data link that they share that puts 
that data right in the hands of the soldier. We had planned to 
only build about 700 of them. We now have put in about 3,500 
because it has been so capable, that young infantry platoon 
leader, infantry company commander, having that data.
    And what has been so impressive, sir, is the innovation of 
our soldiers to work this. We are now doing what we call 
manned-unmanned teaming, where we are streaming the video right 
into the cockpit of our Apaches and that capability, and then 
sharing that real-time video down through those assets.
    Are we as good as we can be between our brothers in the 
Marine Corps and Air Force? No, sir, but we are working toward 
it, is the answer I can give you.
    Mr. Wilson. Well, as a veteran and a parent, I want to 
thank you for what you have done. But the coordination just, to 
me, is so crucial and what you are doing is so meaningful. And 
it is innovativeness of our military personnel who are doing 
such a great job protecting American families.
    Thank you.
    Mr. Abercrombie. Anything else?
    Thank you very much. We will repair to room 2337.
    [Whereupon, at 10:43 a.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             April 23, 2009

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 23, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T1762.001
    
    [GRAPHIC] [TIFF OMITTED] T1762.002
    
    [GRAPHIC] [TIFF OMITTED] T1762.003
    
    [GRAPHIC] [TIFF OMITTED] T1762.004
    
    [GRAPHIC] [TIFF OMITTED] T1762.005
    
    [GRAPHIC] [TIFF OMITTED] T1762.006
    
    [GRAPHIC] [TIFF OMITTED] T1762.007
    
    [GRAPHIC] [TIFF OMITTED] T1762.008
    
    [GRAPHIC] [TIFF OMITTED] T1762.009
    
    [GRAPHIC] [TIFF OMITTED] T1762.010
    
    [GRAPHIC] [TIFF OMITTED] T1762.011
    
    [GRAPHIC] [TIFF OMITTED] T1762.012
    
    [GRAPHIC] [TIFF OMITTED] T1762.013
    
    [GRAPHIC] [TIFF OMITTED] T1762.014
    
    [GRAPHIC] [TIFF OMITTED] T1762.015
    
    [GRAPHIC] [TIFF OMITTED] T1762.016
    
    [GRAPHIC] [TIFF OMITTED] T1762.017
    
    [GRAPHIC] [TIFF OMITTED] T1762.018
    
    [GRAPHIC] [TIFF OMITTED] T1762.019
    
    [GRAPHIC] [TIFF OMITTED] T1762.020
    
    [GRAPHIC] [TIFF OMITTED] T1762.021
    
    [GRAPHIC] [TIFF OMITTED] T1762.022
    
    [GRAPHIC] [TIFF OMITTED] T1762.023
    
    [GRAPHIC] [TIFF OMITTED] T1762.024
    
    [GRAPHIC] [TIFF OMITTED] T1762.025
    
    [GRAPHIC] [TIFF OMITTED] T1762.026
    
    [GRAPHIC] [TIFF OMITTED] T1762.027
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 23, 2009

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. MILLER

    General Davis. Congressman, the answer to your question would be 
best provided by the Commander, Special Operations Command, but I can 
offer that Special Operations is currently reviewing their aviation 
force structure. It is expected they will want to grow that force to 
some extent which has not yet been determined. But we fight as a Joint 
Force, and the Army is currently providing aviation support to combat 
operations by Special Operations Forces in Afghanistan and Iraq and 
will continue to do so in future operations based on prioritization and 
taskings by the Joint Force Commander. [See page 8.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. MARSHALL

    General Davis. I have provided your staff the documents that 
support the capability and ask that you accept these documents as an 
addition to my written statement. [See page 6.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. HUNTER

    General Davis. The Army is pursuing an integrated strategy to 
increase counter-IED capabilities for our deployed forces as quickly as 
possible. Task Force ODIN is only one piece of this strategy, and we 
are exploring avenues to accelerate the deployment of this capability 
into Afghanistan. Prior to TF ODIN's full deployment later this summer, 
we will also deploy a Combat Aviation Brigade which will greatly 
enhance the Commander's counter-IED capabilities. This is not a stop-
gap measure, per se, but a component of our integrated strategy which 
will significantly increase our ability to counter the IED threat. [See 
page 20.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. MASSA

    General Davis. Due to the long lead requirements and requisite 
build times of approximately 36 months for new build aircraft, 
additional funding would achieve no acceleration in filling existing 
shortages within the Chinook fleet, although it would still accelerate 
the program of record. Currently short 54 aircraft, the Army cannot 
afford the operational impact to accelerate its remanufacture program 
as this takes an operational CH-47D out of the fleet to fill a 
remanufacturing requirement. Congress has been very supportive of the 
CH-47 program and as a result the Army will fill all of its MTOE 
shortages by the end of FY13 with a mixture of CH-47D and CH-47F 
aircraft. The active component will be pure fleet CH-47F by the end of 
FY 12; the ARNG will have all shortages filled by the end of FY 13 and 
pure fleet CH-47F by the end of FY18; the USAR will be pure fleet CH-
47F by the end of FY15. [See page 17.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 23, 2009

=======================================================================

      
                  QUESTIONS SUBMITTED BY MS. GIFFORDS

    Ms. Giffords. I recently learned that the United States Army 
intends to move the final acceptance of the Unmanned Aerial Systems 
from Fort Huachuca to Dugway Proving Grounds. I understand that the PM 
for Unmanned Aircraft Systems had been evaluating several installations 
for this move, including Fort Huachuca, Yuma and Dugway, to determine 
which location is best suited for the Rapid Integration and Acceptance 
Center. I understand that consolidating this mission at one location is 
a cost and resource saving measure. I am concerned about what the 
methodology was for making the decision to move the mission to Dugway 
and that insufficient research was done prior to making the decision.
    What are the advantages of operating this mission out of Dugway 
versus Fort Huachuca?
    General Crosby. PM UAS started surveys in March 2008. The locations 
that were surveyed over the next 12 months included Yuma Proving Ground 
(YPG), AZ, Dugway Proving Ground (DPG), UT, White Sands Missile Range 
(WSMR), and Fort Huachuca, AZ. The selection criteria included:
    1. maximum amount of restricted airspace available to fly unmanned 
aircraft without requiring a Certificate of Authorization (COA). A COA 
requires a chase plane for UAS operations, which causes additional 
costs to the program.
    2. a very clean frequency spectrum, not only for current needs, but 
for future data and video links and payloads
    3. ability to launch and deploy external stores and weapons
    4. ability to support large scale joint interoperability testing 
with multiple aircraft and control stations
    5. available facilities or ability to expand with new facilities to 
support current and future growth
    6. high priority with maximum flexibility to fly unimpeded when 
needed
    7. the ability to consolidate all the activities at one location
    YPG, DPG, WSMR and Huachuca were visited one or more times with the 
above criteria as baseline factors. During the analysis of the three 
most likely locations (Ft. Huachuca, YPG, and DPG), DPG was the clear 
lead in every criteria. WSMR was not considered a suitable location due 
to the current and projected workload and the lack of suitable 
facilities to support the RIAC mission. DPG was primarily selected 
given its large (1300 sq mi) restricted air space with ability to 
expand to almost 8000 sq mi using the adjacent airspace with the Utah 
Test and Training Range (UTTR). Additionally, DPG has an almost 
``clean'' frequency spectrum along with multiple runways of 11kft, 
8kft, and 2.5kft long with the ability to expand the existing 
facilities with its expansive land area.
    Ms. Giffords. Fort Huachuca controls its own restricted airspace 
which is a great advantage when flying UASs, describe how Dugway's 
airspace is more advantageous than Fort Huachuca's?
    General Crosby. DPG's airspace is also restricted and controlled by 
the Army. DPG's controlled airspace is as large as that at Fort 
Huachuca, but substantially less congested, not having to deal with the 
UAS Training Center, as well as manned and unmanned traffic (border 
patrol missions and other training activities) at Libby Army Airfield. 
Additionally, with prior coordination, additional restricted airspace 
controlled by the Air Force could be made available if needed for 
weapons firing and long-range datalink testing.
    Ms. Giffords. What is the comparison of infrastructure upgrades 
required at Dugway versus Fort Huachuca to conduct this expanded 
mission?
    General Crosby. There were no facilities available at Fort Huachuca 
for consolidation of Army UAS activities at that location. Fort 
Huachuca, Rapid Integration and Acceptance Center (RIAC) activities 
would be in three different locations unless an entirely new complex is 
built, including runways, office and hangar space, etc. DPG offers an 
airfield that allows for at least three simultaneous UAS flight 
activities to occur, one off a 13,000 foot long runway that has minimal 
air traffic, one taxi way over 8,000 feet long, and another taxiway of 
over 2,000 feet. DPG also has a 20,000 square foot hangar, almost half 
of which is being made available until suitable maintenance buildings 
can be built. DPG also offers an expansive area for any new facilities 
needed, all adjacent to the existing ramp and accessible to the 
runways.
    Ms. Giffords. What is the difference in cost of conducting the 
mission from Dugway versus Fort Huachuca?
    General Crosby. Every location surveyed required additional 
infrastructure and associated costs with Fort Huachuca requiring the 
most. Additional infrastructure needed at Fort Huachuca would include: 
runway, hangars, and office buildings.
    A quantitative cost analysis was initiated during the range survey 
focusing on contract cost savings for consolidating assets at one 
location; however, due to the lack of specific cost proposals for 
building hangars and other maintenance buildings, office complex, and 
runways, only a qualitative analysis was completed for development of 
buildings and flight line infrastructure costs.
    DPG had an existing runway infrastructure requiring minimal 
upgrades. Additionally, DPG had a portion of an existing 20,000 square 
feet hangar available for temporary use until new maintenance buildings 
could be built. DPG, also had available land space near existing 
utility infrastructure for office complex, etc., holding down 
additional cost burden.
    Fort Huachuca's lacked any existing locations for consolidating all 
the RIAC activities in one location per Fort Huachuca garrison staff. 
As such, a totally new complex would have to be constructed in an 
undeveloped area, including new runways, maintenance buildings, and 
office complex, along with the infrastructure costs associated with 
bringing utilities into a new location.
    Ms. Giffords. When were site surveys conducted at Fort Huachuca?
    General Crosby. PM UAS has had presence at Fort Huachuca full-time 
since October 2000 so was very familiar with the capabilities and 
limitations Fort Huachuca had available. Starting in the summer of 
2008, PM UAS held several meetings with the Deputy Commanding General 
for Fort Huachuca to discuss the RIAC plans and potential for Fort 
Huachuca support. Follow-on discussions were held in early 2009 with 
the Garrison staff for Fort Huachuca. A final meeting was planned on 27 
April 09. The final survey trip was cancelled due to receiving the 
decision by the Vice Chief of Staff of the Army (VCSA) that DPG was 
selected for the RIAC. The last surveys were for final confirmation of 
what had already been gathered during previous surveys.
    Ms. Giffords. What are the plans for relocating the skilled workers 
with experience on the Shadow UAS system from Fort Huachuca to Dugway? 
How many of these employees are expected to actually relocate to 
Dugway?
    General Crosby. For Shadow (AAI), a ``phased relocation'' plan and 
schedule is in place that has the first fully operational team on site 
at DPG around the mid October 2009 timeframe. The remaining team 
transition will take place from November to be completed by the end of 
February 2010 or sooner if possible as business support and obligations 
allow. Concurrent operations is planned at both Fort Huachuca and DPG 
during the transition and phasing ``in/out'' operations. According to 
current employee response to relocation queries, approximately 70-75% 
of the current work force of 85 is on track to move. Replacement staff 
to backfill attrition is in present resource planning. Note: these 
values represent an ``approximation'' and more detail will be available 
as the July 31 timeframe closes in.
    For Hunter (Northrop Grumman Corp), the current plan (in 
coordination with PM-UAS) is to start flying at DPG around mid-November 
2009. Initial estimates indicate only about 15 NGC staff will be 
impacted by the move. These are mechanics, technicians, and operations 
personnel needed to perform flight operations. At this time, no 
engineers will be moving to DPG. They will provide support on an ``as 
needed'' basis. In the future, if engineering task and payload 
development increases on Hunter an additional three to five people 
could move to DPG. Most of these people (15) will be on Temporary Duty 
(TDY) to DPG with the team relocating there over the next year.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. KISSELL

    Mr. Kissell. What do you believe is the future of the ARH Program 
in light of the Administrations Defense Priorities?
    General Crosby. The ARH Program was cancelled by the Defense 
Acquisition Executive on 16 October 2008. However, the Army remains 
committed to the critical requirement for a light, armed, aerial scout 
capability to replace the aging Kiowa Warrior. Any future program will 
be informed by a comprehensive Analysis of Alternatives that will 
consider manned, unmanned, or manned-unmanned teaming possibilities to 
fulfill this critical requirement. This comprehensive analysis of all 
armed aerial scout alternatives is fully aligned with the 
administration's intent to proceed with balanced modernization of 
conventional systems. Also, the acquisition of this system will fully 
comply with the administration's procurement and contracting reforms.
    Mr. Kissell. How does the announcement of the Kiowa interim upgrade 
program affect the timing of the ARH program?
    General Crosby. The criticality of the ARH capability requirements 
and the timeline to fulfill those requirements is not affected by the 
Kiowa Warrior upgrade. The Kiowa Warrior Cockpit and Sensor Upgrade 
Program is an interim solution to address obsolescence and sustainment 
until a viable replacement is procured to meet the capabilities 
identified in the Analysis of Alternatives study plan. The Army is 
proceeding quickly and with diligence toward executing the Analysis of 
Alternatives which will be complete in early FY11. The results of the 
analysis and the decisions made during the acquisition process will 
ultimately decide the timeline of a follow-on program to fulfill the 
requirement. A future program that addresses the armed aerial scout 
capability requirements is influenced by the time required to perform 
the Analysis of Alternatives, complete the requirements development, 
and determine prospective materiel solutions.
    Mr. Kissell. What do you see as the timing for the release of an 
RFP for the ARH Program?
    General Crosby. Pending a determination of a materiel solution from 
the Armed Aerial Scout Analysis of Alternatives and an approved 
Capability Development Document, a Request for Proposal for follow-on 
program is not expected until FY11.
    Mr. Kissell. We hear from soldiers in theater that the Integrated 
Vehicle Health Management System (IVHMS) is providing significant 
maintenance benefits on the UH-60 fleet. Could you highlight some of 
those benefits and cost savings?
    General Crosby. We have been able to retain 21 engines in service, 
that would have otherwise been removed and replaced due to suspected 
overtemp, during the deployment of 122 aircraft in theater for a year 
($482K/engine* 21 engines = $10.122M).
    By utilizing HUMS information we have identified the degradation/
failure of the generator spline adapter. This degradation/failure has 
been correlated to subsequent generator failure if the adapter is not 
replaced. This allows us to preemptively replace the spline adapter and 
continue the generator in service at a rate of one per month for 122 
IVHMS equipped UH-60 A/Ls (average $19K/generator each month = $228K/
yr).
    The IVHMS demonstration has proven a readiness increase during 
Operational Tempo of 5%, due to the ability to realign unscheduled 
maintenance into scheduled maintenance interval (readiness increase = 
2.5 aircraft available for deployed operations). The IVHMS 
demonstration has proven to reduce the maintenance burden by 4750 
maintenance man hours per year per brigade by removing the 120 hour 
vibration check. During the IVHMS demonstration, the Army has realized 
multiple safety benefits from having IVHMS installed. Mechanical 
Diagnostics Data provided from IVHMS is used to assess the health of 
the aircraft after every flight. Multiple components have been 
identified as being faulty between maintenance intervals, thus avoiding 
unscheduled maintenance, second order damage, and possibly catastrophic 
failure.

                                       Emerging UH-60 Reliability Metrics

----------------------------------------------------------------------------------------------------------------
              Mission Aborts/100                      Scheduled MMH/FH   Unscheduled MMH/FH    Unscheduled MMH/
                      FH            Total MMH/ FH                                                 Total MMH
----------------------------------------------------------------------------------------------------------------
Unmonitored   1.94                2.91               1.99               0.92                 31%
----------------------------------------------------------------------------------------------------------------
  Monitored   1.01                2.41               1.96               0.45                 19%
----------------------------------------------------------------------------------------------------------------
      Delta   0.76                0.5                0.03               0.44                 12%
----------------------------------------------------------------------------------------------------------------
              -48%                -17%               -1.3%              -52%
----------------------------------------------------------------------------------------------------------------

    MMH--Maintenance Man Hour
    FH--Flight Hour

    Mr. Kissell. Can you provide an update on the status of fully 
outfitting the UH-60 fleet with the IVHMS System? How much funding do 
you need to continue to outfit those units deploying to Iraq and 
Afghanistan so they continue to realize the benefits of IVHMS?
    General Crosby. The number of aircraft currently equipped with 
IVHMS: H-60 A/L - 437; H-60M - 111. The number of additional aircraft 
funded and/or scheduled to receive IVHMS: H-60 A/L - 329, H-60M - 51 
scheduled for FY10 (all aircraft produced with IVHMS installed).
    Priority for new IVHMS installations is for aircraft being deployed 
to OIF/OEF. No additional funding is necessary to equip H-60 units 
currently deploying to Iraq and Afghanistan. We are currently 
installing IVHMS on approximately 300 aircraft per year. At this rate, 
it is estimated to take 2.9 years to fully outfit the UH-60 fleet.

                                  <all>

</pre></body></html>
